William M. Jay
+1 202 346 4190
WJay@goodwinlaw.com

Goodwin Procter LLP
1900 N Street, NW
Washington, DC 20036
goodwinlaw.com
+1 202 346 4000

June 4, 2021

VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Doe Company v. United States, No. 20-1141

Dear Mr. Harris:
In accordance with this Court’s Order dated March 19, 2020, Petitioner respectfully requests that this
Court delay the distribution of the petition for a writ of certiorari in the above-captioned case by one
week, until the June 16, 2021 distribution date.
The petition was docketed on February 22, 2021. Respondent filed its brief in opposition on May 25,
2021. The first distribution date after the 14-day period provided by Supreme Court Rule 15.5 is June
8, 2021.
The additional time is warranted because the undersigned counsel of record for Petitioner is scheduled
to argue in two separate remote oral arguments on June 7, 2021. Preparation for those arguments,
together with the COVID-19 remote work environment and the need to communicate with Petitioner,
who is located outside the United States, makes it difficult for counsel for Petitioner to complete a reply
prior to the June 8 distribution date.
Respondent has no objection to this request.
Respectfully submitted,

/s/ William M. Jay
William M. Jay
cc:

Elizabeth B. Prelogar, Acting Solicitor General of the United States
Counsel for Respondent

